Audit of Payments for Medicaid Services to Deceased Beneficiaries - October 1, 1998 Through September 30, 2001 - Maryland
Department of Health and Mental Hygiene
Department of Health
and Human Services
"Audit of Payments for Medicaid Services to Deceased Beneficiaries - October 1, 1998 Through September 30, 2001
- Maryland Department of Health and Mental Hygiene" (A-05-03-00099)
May 20, 2004
Complete
Text of Report is available in PDF format (277kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine the amount of Medicaid overpayments resulting from providers
billing for medical services for dates after the beneficiaries’ death.  We found that for the period October
1, 1998 through September 30, 2001, the Maryland Department of Health and Mental Hygiene did not identify all payments
for medical services provided after death.  In a statistical sample of 100 paid claims, where the beneficiaries’ death
occurred within our audit period, we found 15 payments amounting to $6,199 for services billed to Medicaid beneficiaries
after their deaths.  A separate statistical sample of 100 paid claims, where the beneficiary’s death occurred prior
to our audit period, identified 4 payments amounting to $877 for services billed to Medicaid beneficiaries after their
deaths.  Based on the results of the first statistical sample, we estimate that unrecovered, unallowable payments
were approximately $940,000 (Federal share $470,000).  There were not enough errors to make a statistical projection
to the second sample.  Maryland officials generally agreed with the recommendations and have initiated corrective
actions.